Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



December 8, 2011

Pre
  eston D. Swa
             afford, LP 3R
                         R-C

FIN
  NAL REPORRT – INSPEC
                     CTION 2010
                              0-13233 – RE
                                         EVIEW OF N
                                                  NUCLEAR P
                                                          POWER
GRROUP'S PER
           RFORMANC  CE TRENDSS



Atta
   ached is the
              e subject fina
                           al report for your
                                         y    review and action. Please advvise us of your
planned actions in respons              dings within 60 days of tthe date of th
                           se to our find                                     his report.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse us
of any
   a sensitivee information             ort which yo u recommen
                           n in this repo                         nd be withhe
                                                                             eld.

If you
   y have any  y questions, please conttact Heatherr R. Kulisek, Auditor, at ((423) 785-48
                                                                                         815
or Greg
    G    R. Stin
               nson, Directo           ons, at (865) 633-7367. We appreciate the courrtesy
                           or, Evaluatio
and d cooperatio
               on received from
                           f    your staaff during th is review.



Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
(Au
  udits and Evaluations)
ET 3C-K

HR
 RK:FAJ
Atta
   achment
cc (Attachmentt):
     Micheal B. Fussell, WT T 9B-K
     Kimberly S.
               S Green, WT 7B-K
     Peyton T. Hairston, Jrr., WT 7B-K
     Tom Kilgore, WT 7B-K K
     William R. McCollum, Jr., LP 6A-CC
     Richard W.
              W Moore, ET T 4C-K
     Emily J. Reynolds,
              R         OCCP 1L-NST
     John M. Thomas III, MR
                          M 6D-C
     Robert B. Wells, WT 9B-K
                          9
     Wendy Wiilliams, WT 9B-K
                           9
     OIG File No.
              N 2010-132   233
                Tennessee Valley Authorrity
                Office of the Insspector Ge
                                          eneral
 

Insspecction
           n Reeporrt
     



                                                     

                                                     

 


RE
 

 
 EVIE
    EW
     W OFF
NU
 UCL
   LEAAR P
         POW
           WERR
GR
 ROU
   UP'SS
PE
 ERFORRMAANC
           CE
TR
 REN
   NDS
 

 
 
 

 
                           Inspe
                               ection 2010-13233
                               D
                               December 8 8, 2011
Office of the Inspector General                                     Inspection Report




ACRONYMS AND ABBREVIATIONS
CAP                        Corrective Action Program
FY                         Fiscal Year
INPO                       Institute of Nuclear Power Operations
NPG                        Nuclear Power Group
NRC                        Nuclear Regulatory Commission
NSRB                       Nuclear Safety Review Board
OHI                        Organizational Health Index
OIG                        Office of the Inspector General
PER                        Problem Evaluation Report
QA                         Quality Assurance
SCRAM                      Safety Control Rod Axe Man
TVA                        Tennessee Valley Authority
WANO                       World Association of Nuclear Operators




Inspection 2010-13233
Office of the Inspector General                                                                              Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 2

FINDINGS ......................................................................................................... 3

   NPG PERFORMANCE DECLINED DUE TO EQUIPMENT RELIABILITY BUT
   HAS SHOWN IMPROVEMENT THROUGH NEW INITIATIVES ...................... 4
     Watts Bar ................................................................................................................ 6
     Sequoyah ................................................................................................................ 7
     Browns Ferry ........................................................................................................... 8
     NPG ......................................................................................................................10

   NPG CULTURE RESULTS ............................................................................ 11
     Alignment ...............................................................................................................13
     Progress .................................................................................................................15
     Standards ...............................................................................................................16
     Accountability .........................................................................................................17
     Attitude ...................................................................................................................19

RECOMMENDATIONS ................................................................................ 20


APPENDIX
OBJECTIVES, SCOPE, AND METHODOLOGY




Inspection 2010-13233
             Inspe
                 ection 201
                          10-13233
                                 3 – Review
                                          w of Nucllear Powe
                                                           er
                       Gro
                         oup’s Perrformance
                                          e Trends
                         EXECUTIV
                         E        VE SUMM MARY

Why the
      e OIG Did This
                T    Review
                          w

  This review
        r       was inncluded in our
                                 o 2010 Insp  pection Plan n and was innitiated to assess
  the peerformance of o the Tenne essee Valleyy Authority’s (TVA) Nucle ear Power
  Group p (NPG). Th  his review inc
                                  cluded identtifying (1) pe
                                                           erformance ttrends based  d on
  the Institute of Nuuclear Powerr Operationss (INPO) rep  ports, (2) maj
                                                                       ajor contributting
  factorrs affecting th
                      he performaance trends, and (3) pattterns of beha avior that ha
                                                                                    ave
  an impact on cultu  ure.

What the
       e OIG Foun
                nd

  We as  ssessed the performanc   ce of TVA’s tthree nuclea  ar generatingg plants
  individdually and coollectively ov
                                   ver the 6-yeaar period be eginning 200 05 through 2010.
  Overa all, NPG’s pe erformance with
                                    w respectt to the INPO   O index declined through   h
  2007 and has sho    own improve ement throug gh 2010. Ass discussed in more deta      ail
  later, the INPO Index is the in  ndustry stand
                                               dard in trend ding nuclearr performancce
  safetyy and reliability. Through h interviews and our revview of documentation, w     we
  found that outage  es, both planned and forcced, were a major contrributing facto     or to
  the chhanges in INPO performance. The m      majority of th he unplanne ed outages
  appea  ar to be a res
                      sult of equip
                                  pment reliabiility issues. Factors con  ntributing to
  perforrmance imprrovement inc    clude a gap--based busin   ness plan annd other new  w
  initiatives, includin
                      ng a focus on equipmen  nt reliability, w
                                                              within the orrganization.

  As part of our review, we iden  ntified a nummber of stepss manageme    ent has takeen to
  improve NPG perrformance as     s well as add  dress areas for improvement in cultu  ure.
  As nooted later, TVVA is in the midst
                                  m      of a suubstantial cu
                                                            ultural changge effort. This
  review
       w by the OIG  G (Office of the Inspecto r General) w was meant to o supplemen   nt
  TVA’ss broader efffort, not supp plant it. Thee elements oof culture tha
                                                                         at we review wed
  includ
       ded: (1) Alignment, (2) Progress,
                                  P           (3)) Standards,, (4) Accounntability, and
  (5) Atttitude. In the
                      e areas of (1
                                  1) Alignmentt and (2) Pro ogress, man  nagement ha  as
  taken actions thatt enhanced culture,
                                   c         as fo
                                                 ollows:

     Alignment – NPG
                    N     has adoopted a fleett mentality, w
                                                           which focuse es on operatting
      pla
        ants as one team and one fleet to a ccomplish ccommon goa      als. NPG alsso
      co
       ontinues to work
                    w      toward educating thhe workforce e on their rolle and
      responsibilities in the orga
                                 anization.
     Prrogress – NP
                   PG is taking strides to ennhance the organization  n by consideering
      recommendattions made by  b both interrnal and exte ernal assesssments to
       mprove performance and
      im                        d integrating site businesss plans, pro
                                                                      ojects, and o
                                                                                  other
      pe
       erformance initiatives intto NPG budg gets and entterprise risk assessments to
      im
       mprove performance flee et-wide.


                                                                                        Page i
             Inspe
                 ection 201
                          10-13233
                                 3 – Review
                                          w of Nucllear Powe
                                                           er
                       Gro
                         oup’s Perrformance
                                          e Trends
                         EXECUTIV
                         E        VE SUMM MARY

  In the areas of (1)) Standards, (2) Accoun tability, and (3) Attitude,, we noted th
                                                                                    hat
  while managemen   nt has taken
                               n some correective actions, the culturre could be
       er enhanced by addressing certain isssues:
  furthe

     Sttandards – Some
                    S    standaards and exp pectations are not clear or have not
      beeen clearly communicate
                    c          ed or reinforrced. Howevver, this deficiency has b
                                                                                been
      ide
        entified, and
                    d NPG is working to imprrove in this a
                                                         area.
     Ac
       ccountability
                   y – A lack of accountabil ity has been  n to blame fo
                                                                       or issues tha at
       ave arisen att the plants. There is an
      ha                                     n increased ffocus being placed on
      ac
       ccountability to drive it do
                                  own and thrroughout the  e organizatio
                                                                       on. Specific
      ex
       xamples of thhis behaviorr include rev isions made  e to the Corre            n
                                                                         ective Action
      Prrogram (CAP P) and regular accounta ability meetin ngs held at e
                                                                       each of the ssites.
      Hoowever, the CAP and NP    PG’s accoun ntability efforts have nott been fully
      efffective.
     Atttitude – Theere have beeen efforts to improve thee attitude of N
                                                                        NPG’s
      woorkforce, suc ch as the ma
                                 anagement a   at Browns F
                                                         Ferry working  g to regain th
                                                                                     he
      tru
        ust of its empployees. Hoowever, the lack of embrracing initiattives and
      coomplacency of the workfforce could h  hinder the orrganization’ss effectivene
                                                                                    ess.

What the
       e OIG Reco
                ommends

      ecommend th
  We re         he Chief Nuclear Officerr:

     Increase the focus
                   f     on stan
                               ndards withi n the organiization by (1) evaluating
                                                                                g
      ad
       dequacy of standards
                   s         ass compared tto industry, (2) clarifying
                                                                     g the
      ex
       xpectations and
                   a standard  ds that everyyone shouldd follow, and (3) reinforcing
      those standards throughoout the organ
                                          nization.
     Coontinue to prromote the fleet
                                f     mentalitty throughou
                                                         ut the organiization and
      co
       onsider inputt from the woorkforce wheen making d decisions tha
                                                                     at would direectly
      afffect their wo
                     ork.
     Co
       ontinue efforrts to be proactive in ide
                                             entifying opp
                                                         portunities that would
      en
       nhance the organization
                   o             .
     Work
      W                           s and trust t hroughout N
             to build relationships                       NPG, which w
                                                                     would encou  urage
      the workforce to embrace new initiativves, foster a fleet menta
                                                                    ality, and incrrease
      their drive to perform.
                     p
     Im                                   P to increasse the workfo
       mplement acttions to imprrove the CAP                       orce’s reliancce
      on
       n the program
                   m.

  TVA managemen
      m        t was providded a draft o
                                       of this report for review. They did no
                                                                            ot
  have any
       a commen            eport.
               nts on the re
                                                                                    P
                                                                                    Page ii
Office of the Inspector General                                      Inspection Report



BACKGROUND
The Tennessee Valley Authority (TVA) began building nuclear power plants in
the 1960s to respond to the rising demand for power. TVA has three nuclear
plants with a total of six operating units that presently generate 30 percent of
TVA’s power supply. TVA has three operating nuclear plants, which include
Browns Ferry, near Athens, Alabama, Sequoyah, in Soddy Daisy, Tennessee,
and Watts Bar, near Spring City, Tennessee.

The performance and reliability of TVA’s assets are important not only for the
financial health of TVA, but failure could result in health, safety, and
environmental impacts. TVA’s Nuclear Power Group (NPG) maintains a set of
Fleet Metrics, which consists of lists of agreed-upon indicators, owners,
definitions, performance criteria, and basis. The Institute of Nuclear Power
Operations (INPO) was originally created in order “to establish a program that
specifies appropriate safety standards including those for management, quality
assurance, and operating procedures and practices, and that conducts
independent evaluations.” INPO is a member of the World Association of
Nuclear Operators (WANO) and represents U.S. utilities within WANO. In
addition to INPO’s index, INPO also tracks a number of other indicators TVA
uses to trend performance.

TVA uses the INPO Index as its primary nuclear safety index. The INPO Index is
the recognized industry standard for trending operations performance based on
safety and reliability. It is a weighted combination of performance indicators and
is a useful tool for management in trending overall station performance. The
indicators used to calculate the index change periodically. The number of
indicators has increased from 10 in 2010 to 12 in 2011.

The information for the other measures tracked by NPG in the Fleet Metrics book
related to site events, management challenges, operational focus issues, and
personnel safety issues is also submitted to INPO on a regular basis. INPO
assimilates the information submitted by its members so that each utility can
benchmark against other utilities.




Inspection 2010-13233                                                          Page 1
Office of the Inspector General                                                         Inspection Report



OBJECTIVES, SCOPE, AND METHODOLOGY
This review was included in the Office of the Inspector General’s (OIG) 2010
Inspection Plan and was initiated to assess the performance of TVA’s NPG. This
review is intended to provide an objective evaluation of the performance and
certain cultural elements of TVA’s NPG. The objectives of our review were to
identify (1) performance trends based on the INPO reports, (2) major contributing
factors affecting the performance trends, and (3) patterns of behavior that have
an impact on culture.

To achieve our objectives, we interviewed key NPG personnel including site vice
presidents, plant managers, engineering directors, maintenance managers, and
other site and corporate management. Additionally, we obtained and analyzed
plant business plans, Quality Assurance (QA) reports, Nuclear Safety Review
Board (NSRB) minutes, the nuclear operating model, Fleet Metrics book, and
other relevant information related to NPG’s performance and documents that
identified patterns of behavior. We developed and applied a framework to
evaluate certain cultural elements.

The five areas that make up the framework are Alignment, Progress, Standards,
Accountability, and Attitude. Each of the five areas were given one of three
ratings: very supportive, somewhat supportive, or generally unsupportive1. A
very supportive rating would demonstrate activities and actions that illustrate a
positive culture for that given element, while an unsupportive rating would show a
need to improve the actions and activities related to that element. The approach
used in developing this framework was discussed with the TVA management that
was in charge of the culture change. As to our observations about culture within
NPG, we are aware that it is a common methodology to evaluate culture using a
survey instrument such as the one employed by TVA’s consultants McKinsey
and Company. While the OIG did not conduct a formal survey, we did identify
patterns through documented third-party observations and key interviews across
TVA’s nuclear program that highlight how well TVA is doing. We offer this
information as collateral data to McKinsey’s work.

In 2011, McKinsey completed an assessment of TVA’s Organizational Health
Index (OHI). TVA worked with McKinsey to complete a detailed review of TVA’s
systems, standards, controls, and culture in order to improve TVA’s
effectiveness. The practices that were evaluated in the OHI were assigned a
quartile based upon the utility industry. We reviewed the survey results
completed by McKinsey and were unable to make a comparison between OHI
results and our cultural evaluation because the questions in the OHI survey did
not necessarily match what we reviewed. However, both McKinsey’s and the
OIG’s work noted NPG has improved in some areas and that other areas still
need improvement.

1
   The term “very supportive,” “somewhat supportive” and “generally unsupportive” are terms of art used in
   the OIG matrix set out as Figure 6 on page 12.
Inspection 2010-13233                                                                               Page 2
Office of the Inspector General                                                           Inspection Report


The scope of this review included performance of TVA’s NPG from fiscal year
(FY) 2005-2010. This review was conducted in accordance with the “Quality
Standards for Inspections.”

For additional details of the work performed, see the Appendix.

FINDINGS
We assessed the performance of TVA’s three nuclear generating plants
individually and collectively. Overall, NPG’s INPO index performance declined
through 2007 and has shown improvement through 2010. Through interviews
and our review of documentation, we found that outages, both planned and
forced, were a major contributing factor to the changes in INPO performance.
The majority of the unplanned outages appear to be a result of equipment
reliability issues. Factors contributing to performance improvement include a
gap-based business plan and other new initiatives, including a focus on
equipment reliability, within the organization.

Our review of certain NPG cultural elements found a very supportive2 culture as it
relates to:

   Alignment – NPG has adopted a fleet mentality, educating the workforce on
    their role and responsibilities in the organization; however, having the
    workforce embrace this mentality will take time.
   Progress – Site business plans, projects, and other performance initiatives
    have been integrated into NPG budgets and enterprise risk assessments.

However, NPG culture was somewhat supportive or generally unsupportive in the
areas of:

   Standards – Some standards and expectations are not clear or have not been
    clearly communicated or reinforced. However, this deficiency has been
    identified, and NPG is working to improve in this area.
   Accountability – A lack of accountability has been to blame for issues that
    have arisen at the plants, but a new focus on accountability is being driven
    down and throughout the organization. Specific examples of this behavior
    include revisions made to the Corrective Action Program (CAP) and regular
    accountability meetings held at each of the sites. However, there are still
    indications that the CAP is not fully effective, and internal assessments
    continue to find instances where accountability is still lacking.
   Attitude – There have been efforts to improve the attitude of NPG’s workforce,
    such as the management at Browns Ferry working to regain the trust of its

2
   The criteria for the terms “very supportive,” “somewhat supportive” and “generally unsupportive” can be
   found in the framework in Figure 6 on page 12.
Inspection 2010-13233                                                                                 Page 3
Office of the Inspector General                                       Inspection Report


    employees. However, the lack of embracing initiatives and complacency of
    the workforce could hinder the organization’s effectiveness.

NPG PERFORMANCE DECLINED DUE TO EQUIPMENT
RELIABILITY BUT HAS SHOWN IMPROVEMENT THROUGH NEW
INITIATIVES
Based on the performance of all the nuclear plants, NPG’s performance declined
through 2007 but has shown improvement through 2010. Even with the
improvement, as of 2010, NPG has not achieved its previous 2005 INPO index.
Through interviews and our review of documentation, we found that outages,
both planned and forced, at the plants have been a major contributing factor to
the changes in the INPO performance. The majority of the unplanned outages
appear to be a result of equipment reliability issues. However, in the last 3 years,
NPG’s INPO performance has improved with contributing factors being a gap-
based business plan and other new initiatives, including a focus on equipment
reliability, within the organization.

The INPO Index is made up of performance indicators that are assessed on a
monthly, quarterly, and yearly basis. The indicators that made up the index in
2010 are shown in Figure 1.




Inspection 2010-13233                                                           Page 4
Office of the Inspector General                                                       Inspection Report


Figure 1: 2010 INPO Performance Indicators
    INPO Performance Indicator                  Indicator Description
    Safety System Performance                   Monitors the availability of 3 standby
                                                safety systems3 at each plant.
    Fuel Reliability                            Monitors progress in preventing defects in
                                                the metal cladding that surrounds fuel.
    Chemistry Effectiveness                     Indicates progress in controlling chemical
                                                parameters to retard deterioration of key
                                                plant materials and components.
    Total Industry Safety Accident              Captures lost time and restricted duty
    Rate                                        injuries for the total station personnel
                                                including contractors.
    Unit Capability Factor                      Percentage of maximum energy
                                                generation that a plant is capable of
                                                supplying to the electrical grid.
    Forced Loss Rate                            Percentage of energy generation during
                                                non-outage periods that a plant is not
                                                capable of supplying to the electrical grid
                                                because of unplanned energy losses.
    Collective Radiation Exposure               Monitors the effectiveness of personnel
                                                radiation exposure controls.
    Unplanned Automatic SCRAMs4                 Tracks the mean scram (automatic
    (per 7,000 hrs critical)                    shutdown) rate for 1 year (7,000 hours) of
                                                operation.

The INPO Index is a weighted combination of performance indicators. Each
element is calculated based on a standard industry definition. The product of
each calculation is given a weighted score with the maximum obtainable being
100 points. Many of the indicators are measured over an 18- to 24-month period;
therefore, something that happened 2 years ago can still affect the current INPO
Index.

The following pages present information on INPO Index performance for each of
TVA’s three nuclear plants—Watts Bar, Sequoyah, and Browns Ferry—and NPG
as a whole.




3
     The three safety systems that are monitored count as three separate indicators in the Index.
4
     SCRAM stands for safety control rod axe man. The Nuclear Regulatory Commission defines SCRAM as
     the sudden shutting down of a nuclear reactor, usually by rapid insertion of control rods, either
     automatically or manually, by the reactor operator.
Inspection 2010-13233                                                                           Page 5
Office of the Inspector General                                                           Inspection Report


Watts Bar
Watts Bar has had a positive trend with respect to the INPO index since FY 2007.
However, year-to-year actual performance shown in Figure 2 varied significantly.
The change between 2005 and 2007 was a 32.2 point decline.

Figure 2: Watts Bar INPO Index Performance


    100
                                  WBN INPO Index Trend
                                                                                                   97.4
     95            95
                                                                                   92.4
     90

     85                                                            85.6
                                   82.8
     80

     75

     70

     65
                                                   62.8
     60
              FY05            FY06          FY07           FY08                FY09            FY10
                                          WBN Year End Actual INPO Index


The performance indicators that led to this decline in the index were in the areas
of Forced Loss Rate, Unit Capability Factor, and Collective Radiation Exposure.
Watts Bar experienced two significant outages in the FY 2005 to FY 2007 time
frame that affected these indicators. In 2006, a turbine rotor blade failure caused
a forced outage.5 This outage lasted for approximately 25 days. In 2007, there
was a planned 80-day outage to replace a steam generator. The plant being
shut down this amount of time decreased the performance in the Forced Loss
Rate, Unit Capability Factor, and Collective Radiation Exposure. Although this
outage was planned, it still negatively impacted the INPO performance of the
plant.




5
     The root cause of the failure was determined to be operational at the high-end of approved condenser
     backpressure limits. To deter this from happening again, TVA has limited operation at higher
     backpressures.
Inspection 2010-13233                                                                                 Page 6
Office of the Inspector General                                                     Inspection Report


Sequoyah
Sequoyah experienced a slightly negative trend from FY 2005 through FY 2010.
Sequoyah year-end actual INPO index is shown in Figure 3. There has been a
3.9 point drop since 2005.

Figure 3: Sequoyah INPO Index Performance


 100
                                  SQN INPO Index Trend
                  97.7            96.8                         96.9
  95                                            94.4                                        93.8
                                                                             92.4
  90

  85

  80

  75

  70

  65

  60
             FY05            FY06           FY07           FY08           FY09          FY10
                                         SQN Year End Actual INPO Index


In 2007, a refueling outage contributed to the elevation of Collective Radiation
Exposure. Additionally, a number of unplanned reactor Safety Control Rod Axe
Man (SCRAMs) contributed to the performance decline of Unit Capability Factor.
According to the most recent Sequoyah business plan, the SCRAMs were
related to equipment reliability as well as human performance issues.

More recent challenges have been around the area of procedure use and
adherence. During the 2010 refueling outage, the QA department identified
procedural noncompliance on most jobs encountered. QA observed a direct
correlation between the procedural noncompliance and a lack of line management
in the field during the outage. According to the fourth quarter 2010 QA report,
adherence to procedures was an “overwhelming concern” for QA during the 2010
refueling outage. Because Sequoyah’s performance has not met expectations,
they have developed a site-improvement plan based on a model that uses
performance monitoring to help identify gaps and to develop solutions.




Inspection 2010-13233                                                                          Page 7
Office of the Inspector General                                                          Inspection Report


Browns Ferry
Browns Ferry experienced a negative trend in the INPO index between FY 2005
and FY 2008 and has shown improvement through 2010. Figure 4 below shows
Browns Ferry’s year-end actual INPO index. Between FY 2005 and FY 2008,
Browns Ferry experienced a 21.5 point decrease in the INPO index.

Figure 4: Browns Ferry INPO Index Performance


    100
                                  BFN INPO Index Trend
     95
                   91.3
     90

     85                           84.7
                                                                                                  81.3
     80
                                                  78.3
     75
                                                                                  72.3
     70                                                           69.8

     65

     60
              FY05            FY06           FY07           FY08             FY09            FY10
                                          BFN Year End Actual INPO Index


Performance indicators that contributed to the decline at Browns Ferry included
Chemistry Effectiveness, Chemistry Performance, Collective Radiation Exposure,
Emergency AC Power Unavailability, Forced Loss Rate, High Pressure Injection
Unavailability, Unit Capability Factor, and Unplanned Automatic SCRAMs.

Browns Ferry experienced a number of unplanned automatic SCRAMs with the
restart of Unit 1. During the first 6 months of operation, Browns Ferry Unit 1
experienced five reactor SCRAMs. The number and frequency of the SCRAMs
raised many questions with the Nuclear Regulatory Commission (NRC), and the
unit was added to the NRC watch list with a yellow ranking that requires
additional oversight of the unit by the NRC. A previous OIG review6 found the
operating issues were due to improper installation of fittings, original plant design
errors, failure to identify the correct root cause of a previous issue in a timely
manner, and failure to identify a missing support during a walkdown. The
SCRAMs in combination with other outages through this time frame had a
significant impact on indicators such as Unplanned Automatic SCRAMs, Forced
Loss Rate, Unit Capacity Factor, and Collective Radiation Exposure.



6
     Inspection 2008-11802, Review of Browns Ferry Nuclear Plant Unit 1 Operating Issues Since the Restart
     in May 2007.
Inspection 2010-13233                                                                               Page 8
Office of the Inspector General                                                           Inspection Report


To improve performance at Browns Ferry, in 2008 NPG initiated a Turnaround
Plan. The Turnaround Plan addressed the following six focus areas: (1) Working
Safe and Error Free, (2) Scheduling, Planning, and Implementing Work Efficiently,
(3) Finding and Correcting Problems, (4) Fixing the Plant, (5) Leading the
Organization, and (6) Staffing and Employee Development. Out of the
turnaround effort, the site initiated 40 projects. Of these projects, 37 were
completed as of May 2011. Of the final three projects, one has been funded and
is an ongoing project, and the other two have been either funded or budgeted and
are planned for completion. Based on Browns Ferry’s performance increase of
9 points in 2010, the improvements made as part of the Turnaround Plan appear
to have had a positive impact on the performance.

In addition to the issues with the Unit 1 restart, the NRC concluded during its
routine biennial inspection in August 2007 that Browns Ferry had been “slow to
effect significant improvement in equipment reliability based on the number of
equipment problems and timeliness of corrective actions.”

On May 10, 2011, NRC issued a “red” finding that will increase NRC oversight
and inspection of Browns Ferry. This was due to a residual heat removal7 valve
failure that occurred during a refueling outage in October 2010. NPG conducted
additional analysis and appealed the finding. In June 2011, the NRC denied this
appeal but agreed to do further review. Upon further review, the NRC reaffirmed
its denial of TVA’s appeal in August 2011. This event could have impact on
future performance indicators at Browns Ferry.




7
    A residual heat remover valve is one of two independent valves that are designed to help keep a reactor
    cool in the event of a shutdown.
Inspection 2010-13233                                                                                Page 9
Office of the Inspector General                                                  Inspection Report


NPG
Based on the performance of all the nuclear plants, NPG’s performance declined
through 2007 but has since shown improvement. Even with the improvement, as
of 2010, NPG has not achieved its previous 2005 INPO index of 94.7. The
prevailing cause being the number of plant outages, both forced and planned.

Figure 5: NPG INPO Index Performance


 100                              NPG INPO Index Trend
  95              94.7
  90                                                                                     90.8
                                  88.1
  85                                                                      85.7
                                                              84.1
  80
                                               78.5
  75
  70
  65
  60
             FY05            FY06          FY07           FY08         FY09          FY10
                                         NPG Year End Avg INPO Index


In the last 3 years, NPG has seen a rise in INPO performance. In 2010, NPG
started to conduct gap-based business plans. The gap-based business plans
include the gap analysis, initiatives, and actions to close the gaps consistent with
the TVA Strategic Objectives and NPG’s Focus Areas, including equipment
reliability, over a 5-year period. In the 2011-2015 site business plans, NPG set a
goal to be a top quartile performer by 2015. They have implemented programs
such as Gaps to Excellence plans meant to raise performance. However, the
current NPG culture may be hampering improvement efforts.




Inspection 2010-13233                                                                       Page 10
Office of the Inspector General                                                            Inspection Report


NPG CULTURE RESULTS

      Culture affects everything we do and how we do it. So when
      performance is not up to where it should be, we examine the culture to
      identify the barriers and speed bumps that are getting in the way.
      Dr. Rodger Dean Duncan8

Corporate culture is defined as the combined beliefs, values, ethics, procedures,
and atmosphere of an organization. The culture of an organization is often
expressed as “the way we do things around here” and consists of largely
unspoken values, norms, and behaviors that become the natural way of doing
things.9

Prior reviews of TVA’s governance and culture have clearly established that
across the company there are cultural hard spots. Since the Kingston coal ash
spill in December 2008, TVA has focused on improving its culture and has
experienced significant progress according to the surveys conducted by
McKinsey. In 2011, McKinsey completed an assessment of TVA’s
Organizational Health Index (OHI). The OHI evaluated both NPG and TVA as a
whole in regard to culture.10 Due to differing methods for evaluating culture, we
were unable to make a direct comparison between OHI results and our cultural
evaluation. However, the OHI results, much like our cultural assessment, show
the need for improvement. The OHI results for NPG show that some cultural
areas have shown improvement, while other areas have lagged.

Our evaluation of cultural elements was intended to provide discrete, on-the-
ground observations resulting from our work. To do our evaluation, we applied a
cultural framework designed by the OIG, as seen in Figure 6. This framework
was developed in response to the obvious need for the OIG to capture culture
data that is presented in the course of our routine audit work but which is
collateral to the primary review. The elements of culture that we reviewed were
(1) Alignment, (2) Progress, (3) Standards, (4) Accountability, and (5) Attitude.




8
     Dr. Duncan is a recognized expert in the field of change management and has extensive experience in
     the nuclear industry in the United States.
9
     This definition of corporate culture came from the BNET.com Business Dictionary.
10
     McKinsey has reported even better culture numbers in pulse surveys since the OHI. A pulse survey
     contains a subset of questions from the OHI survey and can be used to estimate or predict the OHI score.
Inspection 2010-13233                                                                               Page 11
Office of the Inspector General                                                          Inspection Report


Figure 6: Framework for Evaluating Cultural Elements
                             Framework for Evaluating Cultural Elements
                    Very Supportive             Somewhat Supportive           Generally Unsupportive
                Strong organizational        Semi-strong organizational      No organizational
                 structure and alignment       structure and alignment          structure and alignment
                 across NPG to clarify         across NPG to clarify            across NPG to clarify
                 ownership and promote         ownership and promote            ownership and promote
                 accountability                accountability                   accountability
                Site business plan aligns    Site business plan              No site business plan or
                 with NPG’s focus areas        somewhat aligns with             the site business plan
                 which align with TVA’s        NPG’s focus areas which          does not align with
 Alignment




                 Strategic Plan                somewhat align with TVA’s        NPG’s focus areas
                Standardized methods,         Strategic Plan                   and/or TVA’s Strategic
                 shared benchmarking,         Standardized methods,            Plan
                 good practices, and           shared benchmarking, good       Standardized methods,
                 synchronized efficiencies     practices, and synchronized      shared benchmarking,
                 are demonstrated across       efficiencies are generally       good practices, and
                 the fleet                     demonstrated across the          synchronized
                                               fleet                            efficiencies are not
                                                                                demonstrated across
                                                                                the fleet

                Initiatives and programs     Consideration is given to       Recommendations from
                 have been put in place        recommendations from             internal and external
                 to address                    internal and external            assessments are
                 recommendations from          assessments                      ignored
                 internal and external        Site business plans,            Site business plans,
                 assessments                   projects, and other              projects, and other
                Site business plans,          performance initiatives have     performance initiatives
 Progress




                 projects, and other           been somewhat integrated         have not been
                 performance initiatives       into NPG budgets and             integrated into NPG
                 have been integrated          enterprise risk assessments      budgets and enterprise
                 into NPG budgets and         Identify opportunities for       risk assessments
                 enterprise risk               improvement by chance           Does not identify
                 assessments                                                    opportunities for
                Structured approach to                                         improvement
                 identifying opportunities
                 for improvement

                Clear standards of           Clear standards of              Clear standards of
                 performance exist             performance generally exist      performance generally
                Standards well                with some exceptions             do not exist
                 understood by the            Standards generally             Standards not well
   Standards




                 workforce                     understood by the                understood by the
                Standards are                 workforce, with some             workforce
                 recognized and                exceptions                      Standards are not
                 reinforced by                Standards are generally          recognized or reinforced
                 management                    recognized and reinforced        by management
                                               by management




Inspection 2010-13233                                                                            Page 12
Office of the Inspector General                                                             Inspection Report


Figure 6: Framework for Evaluating Cultural Elements, continued
                               Framework for Evaluating Cultural Elements
                      Very Supportive             Somewhat Supportive           Generally Unsupportive
                  The site has an effective    The site has a somewhat         The site has an
                   Corrective Action             effective CAP that is being      ineffective CAP, and/or
                   Program (CAP) that is         utilized                         the program is not being
Accountability



                   being utilized               Areas of responsibility have     utilized effectively
                  Areas of responsibility       been somewhat assigned          Areas of responsibility
                   have been adequately         There are few                    have not been
                   assigned                      consequences for poor            adequately assigned
                  There are consequences        performance                     There are no
                   for poor performance                                           consequences for poor
                                                                                  performance

                  There is a trusting          There is a somewhat             There is not a trusting
                   relationship between all      trusting relationship            relationship between all
                   levels of the workforce       between all levels of the        levels of the workforce
                  There is a strong desire      workforce                       There is a sense of
                   among the workforce to       There is a limited desire        complacency among the
Attitude




                   achieve excellence            among the workforce to           workforce as it relates to
                  The workforce embraces        achieve excellence               achieving excellence
                   initiatives and elements     The workforce somewhat          The workforce does not
                   of the organization’s         embraces initiatives and         embrace initiatives and
                   culture                       elements of the                  elements of the
                                                 organization’s culture           organizations culture


We interviewed management at the plants and reviewed documentation such as
business plans, internal and external assessments, and meeting minutes. While
each plant is unique with respect to operations, we found the cultural elements to
be similar throughout the NPG organization. NPG has a strong, supportive
culture as it relates to alignment and progress. However, based on our review,
the culture surrounding standards, accountability, and attitude ranged from
somewhat supportive to unsupportive. Although all elements of culture that were
considered in this review were showing signs of improvement, there were
opportunities for continued growth in each of the areas.

Alignment
During our review, we found NPG to have a very supportive culture as it relates
to alignment. In 2009, the Chief Nuclear Officer expressed a need for a fleet
focus. Initiatives taken to achieve a fleet focus included the NPG Operating
Model and business plans. According to the Nuclear Operating Model, the NPG
fleet focus areas include: Talent Management and Alignment, Equipment
Reliability, Work Management and Outage Execution, Training, Governance and
Oversight. In order to achieve alignment, the Fleet Focus areas were matched
with the TVA Strategic Objectives as seen in Figure 7. NPG’s focus areas
aligned with four of TVA’s five Strategic Objectives. The fifth objective
concentrates on TVA’s customers, with focus areas such as maintaining power
reliability, providing competitive rates, and building trust with TVA’s customers.


Inspection 2010-13233                                                                               Page 13
Office of the Inspector General                                         Inspection Report


Figure 7: Alignment of Focus Areas
         TVA Strategic Objective                           NPG Focus Area
 People: Build pride in TVA’s                          Talent Management and
 performance and reputation.                            Alignment
                                                       Training
 Financial: Adhere to a set of sound                   Work Management and
 guiding financial principles to improve                Outage Execution
 TVA’s fiscal performance.
 Assets: Use TVA’s assets to meet                      Equipment Reliability and
 market demand and deliver public value.                Work Management
 Operations: Improve performance to be                 Governance and Oversight
 recognized as an industry leader.

Strong organizational structure and alignment help to clarify ownership and
promote accountability within an organization. The Nuclear Operating Model
states:

    Alignment is doing business such that there are standardized methods,
    shared benchmarking, good practices, and synchronized efficiencies
    across the fleet. It means we run our nuclear plants as one team and
    one fleet and capitalize on the synergies that give the NPG a true
    business advantage over our competitors. It means the ‘whole is
    greater than the sum of all the parts.’

In conjunction with the fleet mentality NPG has adopted, the nuclear sites have
been communicating, challenging, and benchmarking one another. In addition,
NPG is using business plans as a tool to align individual department goals with
corporate strategy that focuses on key success factors. While NPG is in the
process of incorporating a fleet mentality, educating the workforce on their role
and their responsibilities in the organization, and having the workforce embrace
this mentality, will take time.

The NPG is using their business plans as a tool to align individual department
goals with corporate strategy that focuses on key success factors. This focus on
the NPG rather than the individual plants has led to the plants challenging each
other more, the standardization of processes, and organizational alignment
throughout the organization. The business plan defines the gaps and identifies
the detailed initiatives to implement NPG’s five focus areas and provide a clear
line of site from the individual level to the site, to the fleet, and to the company.

A member of TVA management considered reluctance from the workforce as a
challenge to getting to the fleet focus mentality. Specifically, the natural desire is
to want their team to be the best. The management team has had to help people
understand that what is best for the fleet is best for all. Our review found that
cross-fleet collaboration is getting better as managers are talking to other site
managers and sites are using each other with which to compare and benchmark.

Inspection 2010-13233                                                           Page 14
Office of the Inspector General                                                          Inspection Report


However, NPG management also expressed an opinion that TVA is far behind
private industry in enabling all levels of the workforce to make decisions. The
Nuclear Safety Review Board (NSRB)11 observed at Browns Ferry in 2009 that,
“in general, operators, craft workers, and first-line supervisors have not been
asked to participate in the spirit and structure of the recovery process.” According
to the NSRB minutes, “The NSRB suggested that management should undertake
efforts to engage these levels of station organization into the implementation of
the improvement plans.”

Alignment was rated as having a very supportive culture because TVA’s NPG
emphasizes a “One Team, One Fleet, One TVA” focus, NPG business plans
align with TVA’s strategic plan, and sites are communicating and benchmarking
with one another.

Progress
Identifying opportunities for improvement and taking strides to enhance the
organization are crucial components of an organization’s culture. TVA’s NPG
has a very supportive culture as it relates to progress. Site business plans,
projects, and other performance initiatives have been integrated into nuclear
budgets and enterprise risk assessments to improve performance fleet-wide.

In 2010, NPG began using gap-based business plans to achieve their goals.
According to the NPG business plan, the gap-based business plan for FYs 2011-
2015 is based on thorough analysis and aggressive targets. NPG also created a
spending plan linked to initiatives to close those gaps.

According to interviews, in the past, TVA’s NPG had a reactionary culture when it
came to fixing equipment issues that was so strong that it would erode programs
that supported a proactive approach. However, TVA is now trying to close the
gap in Equipment Reliability. In August 2010, in a presentation to TVA’s
Enterprise Risk Council, Long-Term Equipment Reliability was classified as
having both a high likelihood of occurrence and severity. In addition, external
assessments have identified equipment issues as a concern. NPG has projects
funded/scheduled through FY 2015 to address these risks. Projects include
(1) equipment upgrades, (2) replacement of obsolete equipment, and (3) design
changes. In addition, the NPG 2011-2015 Business Plan has identified
Equipment Reliability as a fleet focus area and has associated metrics to track
performance.

TVA’s NPG continues to progress through programs and processes such as the
Corrective Action Review Board which provides a challenging management
oversight environment and Integrated Trend Reports, which rolls up each
department’s CAP, INPO, and NRC issues, and identifies the top issue in each
department, the action owner, and a remediation plan.
11
     The Nuclear Safety Review Board is an independent committee which provides senior-level oversight of
     TVA's nuclear program with respect to nuclear safety. The NSRB advises the Chief Nuclear Officer on
     the adequacy and implementation of NPG's nuclear safety policies and programs, and evaluates these
     policies and programs for compliance with regulatory activities.
Inspection 2010-13233                                                                             Page 15
Office of the Inspector General                                                           Inspection Report


Progress was rated as having a very supportive culture because initiatives, such
as gap-based business plans, provide a structured approach to identifying
opportunities for improvement and addressing recommendations from internal
and external assessments, and resources have been allocated to those
initiatives.

Standards
Establishing clear standards and ensuring those standards are understood and
reinforced are important aspects of an organization’s culture. TVA’s Nuclear
Operating Model defines standards for NPG that relate to human performance
and accountability. NPG has a generally unsupportive culture as it relates to
standards. During our assessment, we found that some standards and
expectations are not clear or have not been clearly communicated or reinforced,
which could lead to the standards at the nuclear plants being ineffective.
However, this deficiency has been identified, and NPG is working to improve in
this area. The NPG Operating Model defines the common policies, processes,
and procedures that NPG views as essential for success.

Following the Kingston ash spill in 2008, TVA’s Board of Directors hired the firm
of McKenna Long and Aldridge LLP to, among other things, prepare a factual
report on the Kingston spill. McKenna Long and Aldridge LLP found that “TVA’s
Byproduct Facilities operated pursuant to decades of lore, without formalized
standards or procedures. As a result, Management could not effectively monitor
the employees’ activities pursuant to acceptable performance standards.”
Granted this example is outside NPG but illustrates the historical legacy issue of
resistance to uniform standards.

Interviews and external assessments stated that NPG standards and processes
lag the industry in some respects. Specific areas that were identified included
human performance, work management, and the CAP.

In recent years, the NSRB has identified several issues related to standards. In
2009, the NSRB noted Sequoyah management has not adequately
communicated nor rigorously enforced high performance standards in the
workforce. There were also reports of managers circumventing procedural
directions. In addition, the NSRB expressed a need to establish and enforce
high standards at Browns Ferry. Specific instances were cited in which
management disregarded station rules, such as, maintenance was performed
without clearance when it was required, and a supervisor authorized the work to
proceed in disregard of station rules. In another instance, at the end of 2010, the
NSRB noted an instance at Watts Bar in which an operator did not follow a
procedure, and the manager did not follow-up to ensure the crew was performing
in accordance with standards and expectations. In addition, the corresponding
Problem Evaluation Report (PER)12 was closed without addressing any of the
human performance errors.

12
     As part of the CAP process, PERs are used to document deficiencies and conditions adverse to quality.
Inspection 2010-13233                                                                              Page 16
Office of the Inspector General                                      Inspection Report


As part of NPG’s fleet focus on Governance and Oversight, NPG plans to
(1) move the organization from being a reference and support source to fulfilling
the role of providing oversight and setting standards for excellence and
(2) establish common standards, processes, and programs across the fleet. At
the site level, Watts Bar in its handbook acknowledges that some standards and
expectations are not clear or have not been clearly communicated and reinforced,
which has led to a lack of understanding, buy-in, and engagement. Therefore,
they have set a goal to “effectively communicate and reinforce standards and
expectations to establish the right picture of excellence...” In addition, Sequoyah
has set an initiative to “continue to reinforce expectations and standards for
procedure use and adherence in training” to achieve operational excellence.
In summary, NPG’s culture surrounding standards was rated as being generally
unsupportive. This rating is due to management not adequately communicating
or reinforcing standards, which has led to the workforce’s lack of understanding
of those standards. Additionally, programs and procedures are perceived by
some to be lagging the industry.

Accountability
Assigning responsibility and establishing consequences are two of the key
factors in an accountable culture. In addition, an effective CAP can assist with
the assigning of responsibility and the tracking of progress. While NPG is taking
strides to make accountability a priority, it still has a somewhat supportive
accountability culture. Although a lack of accountability has been to blame for
issues that have arisen at the plants, a new focus on accountability is being
driven down and throughout the organization. Examples of initiatives that would
improve accountability include revisions made to the CAP and regular
accountability meetings held at each of the sites. However, there are indications
that the CAP is not fully effective. In addition, internal assessments continue to
find instances where accountability is still lacking.

Accountability is a core value for TVA and has become a focal point for NPG.
The behaviors identified in the Nuclear Power Group Operating Model restate
TVA’s expectations of accountability in the workplace:

   We are serious about safety.
   We work on the right things.
   We are accountable for results.
   We follow the rules.
   We use TVA resources wisely.




Inspection 2010-13233                                                        Page 17
Office of the Inspector General                                                              Inspection Report


In addition, the Nuclear Power Group Operating Model contains NPG’s
commitment to:

     Take responsibility for assigned tasks and the performance of the work group,
      station, NPG, and TVA.
     Surface and resolve problems and conflicts professionally.
     Initiate a proactive recovery when appropriate by monitoring progress and not
      waiting for disappointing results.
     Focus on ownership versus blaming when encountering setbacks.
     Demonstrate a can-do attitude by taking initiative.

The Corrective Action Program (CAP) establishes processes and responsibilities
for documenting and resolving problems, including conditions adverse to quality
and significant conditions adverse to quality. In 2009, NPG had an external
assessment of its CAP. The assessment, and an interview, identified a lack of
management involvement and engagement in the CAP. In addition, during one
interview, the CAP was described as being used as a production activity rather
than a quality activity to improve performance. Some departments within NPG
appear to be making the CAP a priority while, according to the NSRB, other
departments’ CAPs remain stagnant or are declining. Using the metrics
established to gauge the effectiveness of the CAP to improve the program may
also encourage employees to use the program if they know it is effective.

The NSRB minutes we reviewed stated that Watts Bar personnel were not
always issuing PERs when a PER was warranted. We also identified through
our review of the A Level13 PERs for all of the nuclear sites that Watts Bar had a
much lower number of A Level PERs for the 2-year period between August 2008
and August 2010 when compared to the other sites. For the time period we
reviewed, Watts Bar had roughly one-fifth the number of PERs that the other
nuclear sites had for a similar time period.

Interviews at the plants indicated that, in the past, a lack of accountability has
contributed to program and process issues. Strides have been taken to improve
accountability, such as accountability meetings now being held regularly at the
plants. In addition, as part of Browns Ferry’s Business Plan, the initiatives to
close gaps in performance are each assigned to an individual who is responsible
for its successful completion, due date, budgeting/cost management, and
achievement of the expected improvement.

Although efforts are being made to improve accountability, during our review of
site quarterly QA reports, we have found that initiatives have been ineffective and
accountability is still lacking. For example, the FY 2011 Watts Bar first quarter

13
     A PER is classified as an A Level when there is a significant condition adverse to quality and root cause
     analysis and recurrence control actions are required.
Inspection 2010-13233                                                                                  Page 18
Office of the Inspector General                                        Inspection Report


QA Report states, “There is a lack of accountability, inconsistent supervisory
engagement, and no clear site owner or champion responsible for overall risk
management.” Also, FY 2011 Sequoyah first quarter QA Report states, “Plant
personnel fail to use basic human error reduction tools and accountability
measures are ineffective.”

Considering that both the CAP and NPG’s accountability efforts have not been
fully effective, NPG’s accountability culture was rated somewhat supportive.

Attitude
Trusting the organization, embracing initiatives, and striving for excellence are
key attributes of an organization’s attitude. In an assessment of TVA issued in
2009 prompted by the Kingston Ash Spill, McKenna Long and Aldridge LLP
found that TVA’s history has demonstrated that the company can be resistant to
the implementation of new directives and that progress in one area can be
eroded by the legacy culture still existing in other parts of the enterprise. We
found that NPG has a somewhat supportive culture as it relates to attitude. NPG
management is taking steps to rebuild trust. However, the lack of embracing
initiatives and complacency of the workforce could hinder the organization’s
effectiveness.

At Browns Ferry in particular, new management has taken strides to improve the
attitude of its workforce. According to the site vice president, prior to the restart
of Unit 1, Browns Ferry was considered by many to be benchmarkable for
industry-best practices. The site vice president went on to say that the issues
with the restart of Unit 1 damaged relationships, and management lost the trust
of its workforce. After multiple management changes, Browns Ferry is finally
moving toward reestablishing the trust that was lost. They are doing this by
listening to the workforce and acting on their concerns. Browns Ferry
management recognizes that if they are not persistent with the new culture
implementation, the workforce could fall back into the old one.

In other sections of this report, we have highlighted the lack of embracing
initiatives that we found during this review. For example, in the accountability
section above, although accountability is both a core value of TVA and a focal
point of NPG, issues remain with respect to accountability. In addition, the CAP
that should be used as a quality control is still viewed by many as a production
activity.

A questioning attitude is one of TVA’s principles for a strong nuclear safety
culture that is outlined in TVA’s Commitment to Nuclear Safety. TVA defined a
questioning attitude as challenging assumptions, investigating anomalies, and
considering potential adverse consequences of planned action. However, there
are indicators of complacency within NPG. There is a belief by some that people
have become “comfortable” in their jobs and are not interested in change. In
addition, the leadership at Sequoyah has been described as having a “palpable
lack of intensity and urgency” by the NSRB. The possible effects of this attitude
Inspection 2010-13233                                                          Page 19
Office of the Inspector General                                                                Inspection Report


were highlighted by a human performance error on June 28, 2010, at Browns
Ferry Unit 3. The condition that resulted from human performance errors was
identified by a trainee with a questioning attitude; however, the situation might
have been avoided had others been paying attention to the developing
circumstances. The NSRB stated:

      The absence of a risk review, poor scheduling, improper
      communication, and the lack of coordination within Operations resulted
      in the plant entering a 12-hour [Limiting Condition for Operation] 14 LCO
      shutdown statement. The event was professionally embarrassing and
      nearly required management to retire one or both units involved in the
      event.

The attitude aspect of NPG culture was rated somewhat supportive due to a
sense of complacency and a lack of embracing initiatives.

RECOMMENDATIONS
We recommend the Chief Nuclear Officer:

     Increase the focus on standards within the organization by (1) evaluating
      adequacy of standards as compared to industry, (2) clarifying the
      expectations and standards that everyone should follow, and (3) reinforcing
      those standards throughout the organization.
     Continue to promote the fleet mentality throughout the organization and
      consider input from the workforce when making decisions that would directly
      affect their work.
     Continue efforts to be proactive in identifying opportunities that would
      enhance the organization.
     Work to build relationships and trust throughout NPG, which would encourage
      the workforce to embrace new initiatives, foster a fleet mentality, and increase
      their drive to perform.
     Implement actions to improve the CAP to increase the workforce’s reliance on
      the program.

TVA management was provided a draft of this report for review. They did not
have any comments on the report.




14
     The section of Technical Specification that identifies the lowest functional capability or performance level
     of equipment required for safe operation of the facility.
Inspection 2010-13233                                                                                    Page 20
                                                                        APPENDIX
                                                                        Page 1 of 1

OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of our review were to identify (1) performance trends based on the
Institute of Nuclear Power Operations (INPO) reports, (2) major contributing
factors affecting the performance trends, and (3) patterns of behavior that have
an impact on culture. To achieve our objectives, we:

   Reviewed Nuclear Power Group (NPG) performance information to assess
    key performance indicators and determine trends.
   Reviewed documentation to determine if causes of the downward trends have
    been identified or tracked.
   Reviewed NPG and site-specific documentation to determine if plans have
    been developed and implemented to address downward trends in
    performance.
   Applied a framework to evaluate certain cultural elements.

   Reviewed site documentation and internal and external assessments to
    assess cultural elements of NPG.
   Interviewed NPG personnel to (1) determine the cause of any downward
    trends found, (2) identify any remediation efforts in place, and (3) discuss past
    and present corporate culture.

The scope of this review included performance of the Tennessee Valley
Authority’s NPG from fiscal year 2005-2010. This review was conducted in
accordance with the “Quality Standards for Inspections.”
